    COMPILATION OF THE FY 2000 ARMY GENERAL FUND
  FINANCIAL STATEMENTS AT THE DEFENSE FINANCE AND
 ACCOUNTING SERVICE INDIANAPOLIS (SUSTAINING FORCES)


Report No. D-2001-158                      July 13, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AAA                   Army Audit Agency
DFAS                  Defense Finance and Accounting Service
                        Office of the Inspector General, DoD
Report No. D-2001-158                                                        July 13, 2001
   (Project No. D2001FI-0036.001)

        Compilation of the FY 2000 Army General Fund Financial
           Statements at the Defense Finance and Accounting
                Service Indianapolis (Sustaining Forces)
                           Executive Summary
Introduction. This is the second in a series of reports issued by the Inspector General,
DoD, related to the FY 2000 Army General Fund Financial Statements. The first
report was on our oversight of the Army Audit Agency audit of the FY 2000 Army
General Fund Financial Statements. This report summarizes the compilation process
performed by the Defense Finance and Accounting Service Indianapolis (Sustaining
Forces), which maintains the Army departmental accounting records and compiles the
Army General Fund financial statements. This audit was performed in response to the
Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994. We delegated the audit of the FY 2000 Army General Fund
Financial Statements to the Army Audit Agency. We performed the work at Defense
Finance and Accounting Service Indianapolis (Sustaining Forces) to determine whether
their compilation of data for the FY 2000 Army General Fund Financial Statements
complied with applicable laws and regulations. The Army Audit Agency disclaimed an
opinion on the FY 2000 Army General Fund Financial Statements, and we concurred
with the disclaimer of opinion. The FY 2000 Army General Fund Consolidated
Balance Sheet reported total assets of $80.7 billion and total liabilities of $54.2 billion.
The Army consolidated Statement of Net Cost reported net program costs of
$87.8 billion for the period ending September 30, 2000. The combined Statement of
Budgetary Resources reported total budgetary resources of $97.0 billion. The Notes to
the FY 2000 Army General Fund Financial Statements should disclose material
suspense account balances. A suspense account is an account for the temporary entry
of charges or credits pending determination of their ultimate disposition.

Objectives. The audit included two objectives. The first objective was to oversee the
Army Audit Agency audit to verify whether we could rely on the work done by the
Army Audit Agency. The first objective was addressed in the first report in the series.
The second objective was to determine whether the Defense Finance and Accounting
Service Indianapolis (Sustaining Forces) consistently and accurately compiled financial
data from field organizations and other sources for the FY 2000 Army General Fund
Financial Statements. This report addresses the second objective. We also reviewed
the management control program as it related to the second objective.

Results. The Defense Finance and Accounting Service Indianapolis (Sustaining
Forces) compilation of financial data from field entities and other sources into the
FY 2000 Army General Fund Financial Statements was not in compliance with Federal
Financial Management Improvement Act of 1996.
The Defense Finance and Accounting Service Indianapolis (Sustaining Forces)
processed 459 accounting entries valued at $464.9 billion to compile the FY 2000
Army General Fund Financial Statements. Of this amount, $361.5 billion represented
240 unsupported and improper entries. The 240 unsupported or improper accounting
entries included 143 accounting entries, valued at $307.8 billion, that were made to
correct discrepancies between accounting data. As a result, the FY 2000 Army General
Fund Financial Statements continued to contain material amounts of unsupported
accounting data (finding A).

The Defense Finance and Accounting Service Indianapolis (Sustaining Forces) could
not determine the actual balances of the Army General Fund suspense accounts. As of
September 30, 2000, the suspense account balances reported by the Department of the
Treasury exceeded the suspense account balances reported by the Army General Fund
accounting stations by $233.0 million. As a result, suspense account balances were a
material uncertainty affecting the amount reported for Fund Balance With Treasury for
the Army General Fund (finding B).

See Appendix A for details of the management control program as it related to controls
over the automated processes used to compile the FY 2000 Army General Fund
Financial Statements.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Indianapolis (Sustaining Forces) enforce the Defense Finance
and Accounting Service guidance on the preparation of journal vouchers to ensure that
all changes to accounting data are properly documented and subject to appropriate
approval, regardless of origin. We recommend establishing independent quality
assurance reviews of accounting entries. We also recommend that the Director,
Defense Finance and Accounting Service Indianapolis (Sustaining Forces) determine the
actual balance of each suspense account and establish an approved action plan with
specific target dates to meet revised requirements for reconciling suspense accounts.
Management Comments. The Director for Accounting, Defense Finance and
Accounting Service concurred in principle with enforcing guidance on the preparation
of journal vouchers but stated no improvements in enforcing the guidance could be
made until new accounting systems can be fielded in November 2005. The Director
nonconcurred with establishing independent quality assurance of accounting entries and
stated the accounting systems lack the level of detail needed to support summary
accounting adjustments and additional levels of review will not improve matters. The
Director agreed to establish an approved action plan with specific target dates to meet
revised requirements for reconciling suspense accounts. See the Finding section for a
discussion of management comments and the Management Comments section for the
complete text.

Audit Response. The Defense Finance and Accounting Service comments were
partially responsive. We request that the Defense Finance and Accounting Service
provide additional comments on enforcement of existing guidance on journal vouchers
and quality assurance reviews. We request that comments on the final report be
provided by September 12, 2001.


                                           ii
Table of Contents

Executive Summary                              i

Introduction
     Background                                1
     Objectives                                2

Findings
     A. Accounting Entries                     3
     B. Suspense Accounts                     11

Appendixes
     A. Audit Process
         Scope                                15
         Methodology                          16
         Management Control Program Review    16
     B. Prior Coverage                        18
     C. Report Distribution                   19

Management Comments
     Defense Finance and Accounting Service   21
Background
    This is the second in a series of reports issued by the Inspector General, DoD,
    related to the Army General Fund financial statements. The first report was on
    our oversight of the Army Audit Agency (AAA) audit of the FY 2000 Army
    General Fund Financial Statements. This report summarizes the compilation
    process performed by the Defense Finance and Accounting Service (DFAS)
    Indianapolis.

    Chief Financial Officers Act. This audit was performed in response to the
    Chief Financial Officers Act of 1990, Public Law 101-576, November 15,
    1990, as amended by the Federal Financial Management Act of 1994, Public
    Law 103-356, October 13, 1994. The Chief Financial Officers Act requires the
    annual preparation and audit of financial statements. Agency Inspectors
    General, or appointed external auditors, are required to audit the financial
    statements in accordance with generally accepted Government auditing standards
    and other guidance provided by the Office of Management and Budget.

    Federal Financial Management Improvement Act of 1996. The Federal
    Financial Management Improvement Act of 1996, Public Law 104-208,
    September 30, 1996, requires each Federal agency to implement and maintain
    financial management systems that comply with Federal financial management
    system requirements, applicable Federal accounting standards, and the U.S.
    Government Standard General Ledger at the transaction level. Federal financial
    management system requirements call for audit trails that identify document
    input, change, approval, and deletions by originator, as well as document
    progress and ensure that all transactions are handled consistently to ensure the
    validity of audit trails and transactions, regardless of their point of origin.

    Role of the Defense Finance and Accounting Service Indianapolis
    (Sustaining Forces). DFAS Indianapolis (Sustaining Forces) provides finance
    and accounting support to the Army and the Defense agencies. Support includes
    maintaining departmental accounting records and preparing financial statements
    from general ledger trial balances and financial data on the status of
    appropriations submitted by DoD field accounting entities and other sources.

    Compilation Process. The compilation process is complicated because
    financial data submitted to DFAS Indianapolis (Sustaining Forces) are not
    generated by integrated, transaction-driven, general ledger accounting systems.
    For 9 years, DFAS Indianapolis (Sustaining Forces) used a complex interim
    process to combine financial information from many accounting and budgetary
    subsystems to compile the Army General Fund financial statements. At the end
    of the fiscal year, field accounting entities supported by DFAS Indianapolis
    (Sustaining Forces) directly submitted a general ledger trial balance to the
    departmental general ledger module of the Headquarters Accounting and
    Reporting System. The general ledger data were consolidated into several
    microcomputer databases. General ledger adjustments were accumulated in an
    additional database. Adjustments were made for many reasons, including to
    change general ledger accounts to match certified status-of-appropriations data,
    to record data received from nonaccounting sources on selected assets and


                                        1
     liabilities, and to record auditor-recommended adjustments. After the general
     ledger adjustments were made, DFAS Indianapolis (Sustaining Forces) used a
     variety of microcomputer programs and applications to convert the databases
     into the FY 2000 Army General Fund Financial Statements. The Army Audited
     Financial Statements Branch, Audited Financial Statements Division of DFAS
     Indianapolis (Sustaining Forces) Corporate Operations Directorate is responsible
     for compiling the Army General Fund financial statements.

     FY 2000 Army General Fund Financial Statements. The FY 2000 Army
     General Fund Financial Statements consisted of the consolidated balance sheet,
     consolidated statement of net cost, consolidated statement of changes in net
     position, combined statement of budgetary resources, and combined statement of
     financing, along with the supporting footnotes, supplementary schedules, and a
     management overview. The FY 2000 Army General Fund Consolidated
     Balance Sheet reported total assets of $80.7 billion and total liabilities of
     $54.2 billion as of September 30, 2000. The FY 2000 Army Consolidated
     Statement of Net Cost reported net program costs of about $87.8 billion for the
     fiscal year ending September 30, 2000. The combined Statement of Budgetary
     Resources reported total budgetary resources of about $97.0 billion. The Notes
     to the FY 2000 Army General Fund Financial Statements should disclose
     material suspense account balances. A suspense account is an account for the
     temporary entry of charges or credits pending determination of their ultimate
     disposition.

     Audit of the FY 2000 Army General Fund Financial Statements. We
     delegated the FY 2000 audit of the Army General Fund financial statements to
     AAA. We assisted AAA by performing audit work at DFAS Indianapolis
     (Sustaining Forces), including examining the processes used to prepare the
     FY 2000 Army General Fund Financial Statements. The AAA disclaimed an
     opinion on the FY 2000 General Fund financial statements, and we concurred
     with the disclaimer of opinion. The AAA could not express an opinion on the
     financial statements primarily because of continual problems with inadequate
     accounting systems, insufficient audit trails, and procedural problems.

Objectives
     The audit included two objectives. The first objective was to oversee the AAA
     audit to verify whether we could rely on the work done by the AAA. This
     objective is addressed in the first report. The second audit objective was to
     determine whether DFAS Indianapolis (Sustaining Forces) consistently and
     accurately compiled financial data from field organizations and other sources for
     the FY 2000 Army General Fund Financial Statements. We also reviewed the
     management control program as it related to the second objective. This report
     addresses the second objective. Appendix A discusses the scope, methodology,
     and management control program review as it related to the second objective,
     and Appendix B contains the prior audit coverage.




                                         2
            A. Accounting Entries
            DFAS Indianapolis (Sustaining Forces) processed 459 accounting entries
            valued at $464.9 billion when compiling the FY 2000 Army General
            Fund Financial Statements. However, 240 (52.3 percent) of the
            accounting entries, valued at about $361.5 billion, were unsupported or
            improper because DFAS Indianapolis (Sustaining Forces) did not fully
            implement or enforce DFAS guidance on the preparation of accounting
            entries. As a result, the FY 2000 Army General Fund Financial
            Statements contained material amounts of unsupported accounting data.

Preparing Accounting Entries
    Table 1 summarizes the values of accounting entries that DFAS Indianapolis
    (Sustaining Forces) made to the general ledger for FYs 1999 and 2000.

                    Table 1. FYs 1999 and 2000 Army General Fund
                            Departmental Accounting Entries
                                          (dollars in billions)
               Purpose of Accounting Entries                         FY 1999          FY 2000
                                                                    No. Amount       No.   Amount
     Forcing general ledger accounting data to match certified       2   $130.5       5     $237.0
     budgetary status-of-appropriations data
     Buyer-seller adjustments                                      93        60.9    71       45.3
     Other adjustments to correct discrepancies between data       46        18.0    67       25.5
     sources
        Subtotal: Unsupported Accounting Entries to Correct        141     $209.4    143    $307.8
                  Discrepancies
     Other unsupported or improper accounting entries               51       80.8    97       53.7
        Total: Unsupported Accounting entries                      192     $290.2   240     $361.5
     All Others – Supported                                        176      175.4   219      103.4
     Vouchers not reviewed                                          12        4.1     0        0.0
        Total Accounting Entries                                   380     $469.7   459     $464.9

    Accounting Entries to Correct Discrepancies. While compiling the FY 2000
    Army General Fund Financial Statements, DFAS Indianapolis (Sustaining
    Forces) prepared 143 accounting entries valued at $307.8 billion to correct
    discrepancies between sources of accounting data. DFAS issued guidance,
    Defense Finance and Accounting Service Memorandum, “Journal Voucher
    Guidance,” August 2, 2000, stating the following:
                When the duly authorized official has determined during a
                reconciliation of data between two or more sources that a discrepancy
                exists, a correcting journal voucher may be necessary. Journal
                voucher entries included in this category often are made to match trial
                balances or other source data reported by operating locations and/or
                accounting stations to the DoD Components’ budget execution



                                              3
           reports. In general, trial balances or other source data should be
           considered to be correct and only should be adjusted to budget
           execution data, or other data, in instances where budget execution
           data are determined to be more accurate. This policy is consistent
           with the DoD Financial Management Regulation (DoD Financial
           Management Regulation). Evidence to support this type of journal
           voucher includes source data and the related analysis used to
           determine which is the correct amount. If a journal voucher is
           necessary, the voucher must document why a discrepancy exists in the
           data; the reason the budget execution data or other data are considered
           to be more accurate, and the evidence to support this reason; and how
           the authoritative source determined the entries on the journal voucher
           are correct.

DFAS Indianapolis (Sustaining Forces) did not implement the preceding
guidance.

          General Ledger Accounting Data. DFAS Indianapolis (Sustaining
Forces) personnel prepared five accounting entries valued at $237.0 billion to
force general ledger accounting data to agree with budgetary accounting data.
They prepared the accounting entries because the accounting systems used to
compile the FY 2000 Army General Fund Financial Statements did not conform
to the general ledger method of accounting, and DFAS Indianapolis (Sustaining
Forces) personnel believed budgetary accounting data to be more accurate.
However, the accounting entries did not include evidence supporting that
assertion. The five accounting entries valued at $237.0 billion were
unsupported. For example, journal voucher 1204000ZZZ, valued at
$236.5 billion, was unsupported because DFAS Indianapolis (Sustaining Forces)
personnel made the accounting entries to force general ledger accounting data to
agree with budgetary accounting data without attempting to analyze the
differences between the two data sources or to determine which data source was
correct. DFAS personnel stated that they could not comply with DFAS
guidance because they did not have the resources necessary to complete the
required analysis at Indianapolis or the time to obtain the requisite data from
field accounting entities.

          Intragovernmental Transactions. DFAS Indianapolis (Sustaining
Forces) personnel prepared 71 accounting entries valued at $45.3 billion to force
intragovernmental transactions between trading partners to agree. DFAS
personnel forced buyers’ transaction data that DFAS Indianapolis (Sustaining
Forces) recorded to agree with sellers’ transaction data recorded by the other
DFAS entities. For example, journal voucher AT21AC-17 valued at
$11.4 billion was prepared to reclassify an amount in general ledger account
7190, Other Gains, as nongovernmental transactions instead of governmental
transactions so that trading partner eliminations did not result in abnormal
balances. These 71 adjustments were not supported because DFAS Indianapolis
(Sustaining Forces) personnel did not reconcile the differences between the two
data sources to determine which was correct. Under Secretary of Defense
(Comptroller) personnel stated that the guidance requiring the buyer and seller
data to match was the result of requirements that the Department of the Treasury
issued for Federal agencies’ Centralized Trial Balance Systems submission.


                                         4
          Sources of Accounting Data. DFAS Indianapolis (Sustaining Forces)
personnel prepared 67 accounting entries valued at $25.5 billion to correct
discrepancies between sources of accounting data, generally to force general
ledger accounting data to match reports prepared from other sources of data or
to force the financial statements to be internally consistent. For example,
journal voucher AT21AC-73 valued at $7.4 billion was made to force the
statement of net cost and the statement of financing to agree. DFAS
Indianapolis (Sustaining Forces) personnel did not reconcile the differences
between the two data sources to determine which was correct.

DFAS Indianapolis (Sustaining Forces) relied on its Headquarters Accounting
and Reporting System to prepare the FY 2000 Army General Fund Financial
Statements. Until DFAS implements an integrated, transaction-driven
accounting system Army-wide, DFAS Indianapolis (Sustaining Forces) must use
accounting data from often conflicting sources to prepare the Army General
Fund financial statements. If DFAS does not analyze the differences among the
conflicting sources of accounting data to identify the correct source, and
document the analysis, DFAS has no assurance that it is using the most accurate
accounting data for financial reporting. DFAS Indianapolis (Sustaining Forces)
should fully implement DFAS journal voucher guidance on the preparation of
adjustments to correct discrepancies between sources of accounting data.

Other General Ledger Accounting Entries. While preparing the FY 2000
Army General Fund Financial Statements, DFAS Indianapolis (Sustaining
Forces) personnel prepared 316 accounting entries valued at $157.1 billion for
reasons other than to correct discrepancies between sources of accounting data.
Of the 316 accounting entries, 97 entries valued at $53.7 billion were not
supported by the documentation that DFAS guidance on journal vouchers
required. Table 2 summarizes the 316 accounting entries by purpose and
support.


                Table 2. Other FY 2000 Army General Fund
                            Accounting Entries
                                (Dollars in billions)
                                                  Unsupported         Total
                  Purpose                        No. Amount     No.    Amount
 Corrections of errors                            50    $28.0   157      $43.5
 Record data provided by other than               13      3.9    81       60.4
 accounting sources
 Record year-end accruals or other                34     21.8    78       53.2
 departmental data
 Total                                            97    $53.7   316     $157.1

During the preparation of the FY 2000 Army General Fund Financial
Statements, DFAS Indianapolis (Sustaining Forces) took effective action to
reduce unsupported accounting entries. For FY 2000, DFAS Indianapolis
(Sustaining Forces) prepared a handbook on the preparation of accounting
adjustments that explained the logic behind 35 types of common, recurring
accounting entries and how they were to be documented. As a result, the value


                                    5
of inadequately documented accounting entries declined from $80.8 billion in
FY 1999 to $53.7 billion in FY 2000.

One unsupported accounting entry valued at $16.7 billion was made to correct a
systemic error in the preparation of DFAS Indianapolis (Sustaining Forces)
accounting data for use by the Defense Departmental Reporting System. The
Defense Departmental Reporting System requires that accounting data submitted
for use in the preparation of financial statements be converted to a standard
format and placed in an Excel spreadsheet. However, DFAS Indianapolis
(Sustaining Forces) software used to accomplish this task included some
erroneous translations from the DoD general ledger to the U.S. standard general
ledger. DFAS Indianapolis (Sustaining Forces) personnel corrected the errors
by changing the spreadsheet directly, instead of submitting correcting
accounting entries through the approved, controlled Defense Departmental
Reporting System process. This direct change was not adequately documented
nor subject to the normal approval process. DFAS guidance on the preparation
of accounting entries should be expanded to ensure that all changes to
accounting data are properly documented and subject to appropriate approval,
regardless of origin.

Quality Assurance Review. In Inspector General, DoD, Report No. D-2000-
160, “Compilation of the FY 1999 Army General Fund Financial Statements at
the Defense Finance and Accounting Service Indianapolis Center,”
July 12, 2000, we recommended that DFAS Indianapolis (Sustaining Forces)
establish independent quality assurance reviews of accounting entries. DFAS
partially concurred, suggesting the revision of existing guidance to require
managers reviewing accounting entries to specifically approve supporting
documentation as part of the review process. DFAS further stated that an
additional independent quality assurance review would not improve managerial
controls over the preparation of accounting entries. DFAS personnel corrected
63 accounting entries ($31.8 billion) to FY 2000 data that auditors had identified
as inadequately documented. Although the requirement for a quality assurance
review was not established, the correction of the 63 accounting entries after
being identified by auditors indicates that additional improvement is needed. An
independent quality assurance review of accounting entries should be established
to minimize or eliminate the occurrence of inadequately documented accounting
entries.

Quality assurance reviews would also identify accounting entries that had not
been properly approved by management. DFAS journal voucher guidance
issued October 28, 1999, was revised to state that approval of accounting entries
also constitutes acceptance of the supporting documentation by the approving
official. The journal voucher guidance also established the position of the
approving official responsible for accounting entries of specific values. For
example, accounting entries valued at more than $1.0 billion should be approved
by the Director, DFAS Indianapolis (Sustaining Forces). However, at the time
the final version of the financial statements was completed, 211 of the 459
accounting entries prepared for FY 2000 valued at $447.8 billion were not
approved by the appropriate official in accordance with DFAS guidance. The
211 improperly approved accounting entries constituted 96.3 percent
($447.8 billion) of the $464.9 billion in accounting entries made by DFAS


                                    6
    Indianapolis (Sustaining Forces). Of the $361.5 billion of total unsupported and
    improper accounting entries, $359.6 billion (or 99.5 percent) were not reviewed
    by the appropriate official. The revision of DFAS journal voucher guidance
    was not implemented, further supporting the need for an independent quality
    assurance review.

    Effects of General Ledger Adjustments. Unsupported accounting entries had
    a material impact on the FY 2000 Army General Fund Financial Statements.
    Table 3 shows the effects of departmental accounting entries for two selected
    financial statement lines.



        Table 3. Effects of Departmental Accounting Entries on the FY 2000
                     Army General Fund Financial Statements
                       for Selected Financial Statement Lines
                                          (in millions)
                                  Unadjusted    Unsupported       Other        Adjusted
               Selected            Balance      Accounting      Accounting     Balance
       Financial Statement Line                   Entries        Entries
     Fund Balance With Treasury      $37,587         $(2,310)         $(770)    $34,507
     Unexpended Appropriations      $245,394       $(218,850)         $(657)    $25,887

    Because of the material impact of unsupported accounting entries, the FY 2000
    Army General Fund Financial Statements were materially influenced by
    unsupported accounting data. As a result, the FY 2000 Army General Fund
    Financial Statements were not auditable.

Conclusion
    DFAS Indianapolis (Sustaining Forces) has used budgetary status-of-
    appropriations data and expenditure data to compile financial data for the Army
    General Fund financial statements contrary to the requirements of the Federal
    Financial Management Improvement Act of 1996. Appendix B lists the audit
    reports issued during the last 9 years that have addressed the use of status-of-
    appropriations and expenditure data. The number and scope of unsupported
    accounting entries have not materially declined. Until an integrated,
    transaction-driven accounting system is implemented Army-wide, DFAS
    Indianapolis (Sustaining Forces) must continue to rely on accounting entries to
    prepare the Army General Fund financial statements. DFAS Indianapolis
    (Sustaining Forces) should implement and enforce DFAS journal voucher
    guidance and establish quality assurance reviews for the preparation of
    accounting entries. Specifically, the Director, Defense Finance and Accounting
    Service Indianapolis (Sustaining Forces) should require personnel to document
    and support all accounting entries made to financial data regardless of origin. In
    addition, personnel should perform analysis, to determine which data source is
    correct when discrepancies exist during a reconciliation of data between two or



                                          7
    more sources; and to obtain approval of journal vouchers from the proper
    official prior to making the accounting entry.

    In Inspector General, DoD, Report No. D-2000-160, we recommended that
    DFAS Indianapolis (Sustaining Forces) establish independent quality assurance
    reviews of accounting entries. DFAS Indianapolis (Sustaining Forces) partially
    concurred, suggesting the revision of existing guidance to require managers
    reviewing accounting entries to specifically approve supporting documentation
    as part of the review process. However, the DFAS approval process was
    ineffective. We found that $359.6 billion (99.5 percent) of the $361.5 billion in
    unsupported accounting entries made to the FY 2000 Army General Fund
    financial data were not properly reviewed and approved. As a result, an
    independent quality assurance review of accounting entries needs to be
    established that will ensure that existing guidance is followed. Unless the
    accounting entries are properly documented and recorded in the supporting
    financial records, the Army General Fund financial statements will be unreliable
    and not auditable.

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis (Sustaining Forces):

          1. Comply with the Defense Finance and Accounting Service
    compilation guidance on the preparation of journal vouchers, specifically:

                  a. Document and support all accounting entries made to
    financial data regardless of origin.

    Management Comments. DFAS concurred in principle and stated that
    certified budget execution data is superior to general ledger data. DFAS further
    stated that the accounting systems currently in use are not capable of providing
    the detail necessary to support this position but a new accounting system, the
    Defense Joint Accounting System, will be deployed by November 2005.

    Audit Response. DFAS comments were not responsive. The adjustments
    based on the DFAS belief in the superiority of certified budget execution data is
    the subject of Recommendation A.1.b. This recommendation refers to the 97
    adjustments for $53.7 billion unrelated to differences between data sources for
    which DFAS Indianapolis (Sustaining Forces) provided either no support or
    inadequate support. One of these adjustments for about $16.7 billion was
    completely undocumented. We request additional comments on how DFAS
    Indianapolis (Sustaining Forces) will support the accounting entries referred to
    above.




                                        8
             b. Perform analysis, and include as support, to determine
which data source is correct when discrepancies exist during a reconciliation
of data between two or more sources.

Management Comments. DFAS concurred in principle and stated that it is
currently conducting analyses to determine whether there is any basis for its
faith in the superiority of certified budget execution data. However, DFAS
further stated that its current accounting systems do not provide the detailed data
necessary to reconcile and support elimination adjustments. This deficiency will
be corrected by November 30, 2005.

                c. Obtain approval of journal vouchers from the proper
official prior to making the accounting entry.

Management Comments. DFAS concurred in principle but stated current
systems limitations created time limitations that did not permit obtaining all
required approvals prior to input of accounting entries. DFAS further stated
that the required approvals were eventually obtained, and that research will be
conducted to determine whether guidance on the delegation of approval
authority needs to be tightened. DFAS is also working with the Under
Secretary of Defense (Comptroller) to incorporate current guidance on the
preparation of accounting entries into the DoD Financial Management
Regulation.

Audit Response. DFAS comments were not fully responsive. The accounting
entries were approved, not only after input, but after the financial statements
were issued. The process of approving accounting entries after the statements
have been issued encourages the erroneous approval of unsupported accounting
entries. If these accounting entries had been found to be incorrect when finally
reviewed and approved, there would have been no recourse but to withdraw the
financial statements they supported. We do not believe DFAS would withdraw
financial statements already issued. DFAS should require the timely approval of
accounting entries. We request that DFAS provide additional comments on how
it can better ensure proper approval of journal vouchers.

       2. Establish independent quality assurance reviews of accounting
entries to ensure that existing guidance is followed.

Management Comments. DFAS nonconcurred, stating that unsupported
accounting adjustments are caused by accounting system deficiencies. DFAS
further stated that there can be no improvement in support for accounting
adjustments until better accounting systems are fielded.

Audit Response. DFAS comments were not responsive. There were 97
unsupported accounting entries for $53.7 billion that were unaffected by
accounting system deficiencies. Of the 97 accounting entries, 66 entries for
$31.8 billion were corrected after auditors pointed out the deficiencies in
support. These 66 accounting entries should have been corrected by the quality
assurance review. In addition, since DFAS will not ensure review of the


                                     9
accounting entries by the proper official, quality assurance is even more
important. As a result, we request additional comments and that DFAS
Indianapolis (Sustaining Forces) reconsider its position and establish a quality
assurance review.




                                    10
           B. Suspense Accounts
           DFAS Indianapolis (Sustaining Forces) could not determine the actual
           balances of the Army General Fund suspense accounts. As of
           September 30, 2000, the suspense account balances reported by the
           Department of the Treasury exceeded the suspense account balances
           reported by the Army General Fund accounting stations by
           $233.0 million. This lack of ability to determine the balances occurred
           because DFAS Indianapolis (Sustaining Forces) did not have effective
           procedures for monitoring and resolving accounting transactions placed
           in suspense accounts. Although DFAS Indianapolis (Sustaining Forces)
           recognized in FY 1997 that material management control weaknesses
           existed with the reconciliation of suspense account balances, no effective
           program to monitor and correct differences was established. As a result,
           suspense account balances were a material uncertainty affecting the
           amount reported for Fund Balance With Treasury for the Army General
           Fund, and there was no assurance that existing suspense account
           differences would be corrected or that future differences would be
           resolved.

Suspense Account Reports
    Suspense Account Management. A suspense account is an account for the
    temporary entry of charges or credits pending determination of their ultimate
    disposition. Previous guidance required accounting activities to take actions to
    clear balances in the suspense accounts in a timely manner. Items that remained
    in the suspense accounts in which no action had been initiated for 6 months or
    longer should have been reviewed for a potential loss of funds investigation. In
    January 2001, the DoD published revised guidance on suspense accounts in
    DoD Regulation 7000.14-R, the DoD Financial Management Regulation,
    volume 3, chapter 11, “Budget Execution – Availability and Use of Budgetary
    Resources.” The regulation requires that all transactions posted to suspense
    accounts 21F3875 and 21F3885 be either resolved or charged back to the
    originating activity within 60 days.

    Financial Reporting. Volume 6B, chapter 10 of the DoD Financial
    Management Regulation, “Form and Content of the Department of Defense
    Audited Financial Statements,” December 2000, requires that material suspense
    accounts be separately disclosed in Footnote 3 of the financial statements of
    DoD entities.

    Suspense Account Reports. We examined two reports of the suspense
    accounts balances. Each was based on data from a different source, and each
    had a different balance at the end of FY 2000.

            The Treasury Trial Balance. The Treasury Trial Balance reflects the
    month-end balance recorded in U.S. Treasury records. These




                                       11
       balances are based on the cumulative net disbursements reported to the
       Department of the Treasury by disbursing stations. The FY 2000 ending
       balance was $463.7 million.

                 Suspense Account Report. The Suspense Account Report is a monthly
       report of suspense account balances sent from the accounting stations to DFAS
       Indianapolis (Sustaining Forces). This report, based on records maintained by
       the accounting stations, is not certified and is the only report that shows the ages
       of suspense account balances. The FY 2000 ending balance was $246.7 million.

Resolving Suspense Account Differences
       DFAS Indianapolis (Sustaining Forces) did not have effective procedures for
       monitoring and resolving accounting transactions placed into suspense accounts.
       As of September 30, 2000, the suspense account balances reported by the
       Department of the Treasury exceeded the suspense account balances reported by
       the Army General Fund accounting stations by $233.0 million.

              Table 4. Pre-Closing Fiscal Year 2000 Ending Balances
                                          (millions)
  Suspense         Treasury Trial          Suspense Account            Difference
  Account             Balance                   Report              (Absolute Value)
  21F3875               $435.3*                     $330.7                  $104.6
  21F3878        N/A                                     .0                     .0
  21F3880                 (11.9)*                    (13.3)                    1.4
  21F3885                  48.4*                     (54.8)                  103.2
  21F3886                  (4.6)*                        .0                    4.6
  21X6276                 (10.7)                     (10.9)                    0.2
  21X6500                  (3.9)                       (0.5)                   3.4
  21X6501                  (0.5)                       (4.5)                   4.0
  21X6875                  11.6*                         .0                   11.6
   Totals               $463.7                      $246.7                  $233.0
*. Includes Amount from September 2000 Closing Voucher.

       Differing suspense account balances call into question the validity and
       monitoring of suspense account transaction data. For example, Department of
       the Treasury Bulletin 2000-02, December 13, 1999, required that the use of
       suspense account 21X6875 be discontinued and that the balances in the suspense
       account be eliminated by June 30, 2000. As shown above, the balances in the
       suspense account were not eliminated and required an $11.6 million entry to
       close the suspense account at year’s end with the Department of the Treasury.

       We discussed the varying suspense account balances with DFAS Indianapolis
       (Sustaining Forces) personnel, and they told us they were aware that problems
       existed. They told us that research was needed in order to reconcile the
       differences between the Treasury Trial Balance and the Suspense Account
       Report.




                                              12
Footnote Disclosure of Suspense Account Balances
    Suspense account information was not properly disclosed in Footnote 3, Fund
    Balance With Treasury, to the FY 2000 Army General Fund Financial
    Statements.

           •   The footnote did not disclose material suspense account balances.
               The DoD Financial Management Regulation requires that any
               material balances in deposit, receipt, suspense, clearing, and related
               nonspending accounts be listed separately in the footnote. A
               suspense account is considered material if it comprises more than 10
               percent of the Other Fund Types line item balance displayed in
               Footnote 3. For FY 2000, the Army General Fund Other Fund
               Types balance was about $134.6 million. As Table 4 shows, the
               amounts for suspense accounts 21F3880, 21X6276, and 21X6500
               were material and should have been disclosed.

           •   The footnote did not disclose the closing amount for suspense
               account 21X6875, and the closing amount disclosed for suspense
               account 21F3885 was incorrect.

           •   The footnote also did not disclose a change in Online Payments and
               Collections accounting policy. Department of the Treasury Bulletin
               2000-02 required that Online Payments and Collections transactions
               that remain unclassified at month’s end be recorded as a summary
               total in suspense account 21F3885.007.

           •   The footnote did not disclose that the reconciliation of suspense
               account balances had been reported by DFAS Indianapolis
               (Sustaining Forces) as a material internal control weakness.

    Suspense account information should be properly and accurately disclosed in
    Footnote 3, Fund Balance With Treasury, in accordance with the DoD Financial
    Management Regulation.

Material Management Control Weakness
    The September 30, 2000, Suspense Account Report showed that $236.8 million
    of the total $246.7 million in suspense (96 percent) was more than 1 year old.
    Generally, the older transactions get, the harder they are to successfully
    research and resolve. The reconciliation of suspense account balances was
    reported by DFAS in FY 1997 as an uncorrected material management control
    weakness. The FY 2000 DFAS Annual Assurance Statement on Internal
    Controls extended the target date for correction from FY 1999 to FY 2002.
    DFAS stated that one of the reasons for the extension is that the complexity of
    audit reconciliation and age of balance differences impacted the agency’s
    progress in clearing the accounts. For this reason, it is critical that those
    differences not due to timing be identified, researched, and resolved as soon as


                                        13
    possible. DFAS Indianapolis (Sustaining Forces) should establish an approved
    action plan with specific target dates for reconciling transactions more than 60
    days old in suspense accounts.

Conclusion
    Suspense account balance differences are an uncertainty affecting the amount
    reported for Fund Balance With Treasury and represent a material internal
    control weakness that must be resolved. It is critical that the uncertainties not
    due to timing be resolved as soon as possible. DFAS Indianapolis (Sustaining
    Forces) should establish an approved action plan with specific target dates for
    reconciling transactions more than 60 days old in suspense accounts. In
    addition, suspense account information should be properly and accurately
    disclosed in the footnotes to the Army general fund financial statements.

Recommendation and Management Comments
    B. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis (Sustaining Forces) determine the actual balance of
    each suspense account and establish an approved action plan with specific
    target dates to meet revised requirements for reconciling suspense accounts
    21F3875 and 21F3885.

    Management Comments. DFAS concurred, stating that a plan of action for
    suspense accounts, including milestones and actions for clearing suspense
    accounts, would be completed by March 24, 2002.




                                        14
Appendix A. Audit Process

Scope
    Audit Work Performed. Our review of the compilation of the FY 2000 Army
    General Fund Financial Statements covered processes, procedures, and related
    management controls that DFAS Indianapolis (Sustaining Forces) used to
    consolidate financial data from field organizations and other sources. The data
    were used to prepare the version of the Army General Fund financial statements
    submitted to the auditors on January 25, 2001. Our examination included a
    review of the following processes:

           •   459 adjusting journal vouchers valued at $464.9 billion made to
               general ledger data; and

           •   the transfer of status-adjusted general ledger data to the printed
               financial statements, including the overview, footnotes, and
               supplementary schedules.

    Limitations to Audit Scope. We did not examine the accuracy of data
    submitted by DoD field accounting entities or other sources or attempt to
    reconcile data with subsidiary records. Examination of the data was the
    responsibility of AAA. We compared the Fund Balance With Treasury
    recorded by the Department of the Treasury for the Army General Fund to the
    Fund Balance With Treasury reported in the Army General Fund financial
    statements. We also reviewed the closing positions of Army General Fund
    appropriations for deficit balances.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense established DoD-wide corporate-level goals, subordinate
    performance goals, and performance measures. This report pertains to
    achievement of the following goal, subordinate performance goal, and
    performance measure:

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-02)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2.).



                                        15
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

              Financial Management Area. Objective: Strengthen internal
              controls. Goal: Improve compliance with the Federal Managers’
              Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Use of Computer-Processed Data. To achieve the audit objective, we relied
    primarily on computer-processed data in DFAS data bases ZPBI, SOURCE21,
    JVDATA, OUTPUT, and Defense Departmental Reporting System. We tested
    the data and determined that they were complete but not subject to adequate
    controls. However, when the data are reviewed in context with other available
    evidence, we believe that the opinions, conclusions, and recommendations in
    this report are valid. Field-level systems were not included in our review.
    Therefore, we can comment only on the reliability of data processed after
    receipt by DFAS Indianapolis (Sustaining Forces).

    Audit Type, Period, and Standards. We performed this financial-related audit
    at DFAS Indianapolis (Sustaining Forces) from August 2000 through
    March 2001. We did our work in accordance with generally accepted
    Government auditing standards except that we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001 and we will undergo a new review.
    The audit included such tests of management controls and management’s
    compliance with laws and regulations as we considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Directive 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides a
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.




                                       16
Scope of the Review of the Management Control Program. We evaluated
management controls over DFAS Indianapolis (Sustaining Forces) processes and
procedures for consolidating financial data from field organizations and other
sources for preparation of the FY 2000 Army General Fund Financial
Statements.

Adequacy of Management Controls. A material management control
weakness, as defined by DoD Directive 5010.40 existed in DFAS Indianapolis
(Sustaining Forces) procedures for compiling the FY 2000 Army General Fund
Financial Statements. Management controls at DFAS Indianapolis (Sustaining
Forces) were not adequate to ensure that accounting entries were properly
documented and recorded in Army accounting records. Recommendations A.1.
and A.2., if implemented, will improve controls over accounting entries.
Although DFAS Indianapolis (Sustaining Forces) recognized in FY 1997 that
material management control weaknesses existed with the reconciliation of
suspense account balances, no effective program to monitor and correct
differences was established. Recommendation B., if implemented, will improve
controls over suspense accounts. A copy of the report will be provided to the
senior official responsible for management controls at DFAS Indianapolis
(Sustaining Forces).

Adequacy of Management’s Self-Evaluation. DFAS Indianapolis (Sustaining
Forces) officials identified financial statement reporting as an assessable unit but
did not perform an evaluation because no evaluations were scheduled to be
completed until FY 2001.




                                     17
Appendix B. Prior Coverage

GAO
    General Accounting Office Report No. AFMD-92-83 (OSD Case No. 8674),
    “Financial Audit: Examination of the Army’s Financial Statements for Fiscal
    Year 1991,” August 7, 1992

    General Accounting Office Report No. AFMD-93-1 (OSD Case No. 9276-E),
    “Financial Audit: Examination of the Army’s Financial Statements for Fiscal
    Years 1992 and 1991,” June 30, 1993

Inspector General, DoD
    Inspector General, DoD, Report No. D-2000-160, “Compilation of the FY 1999
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis Center,” July 12, 2000

    Inspector General, DoD, Report No. 99-153, “Compilation of the FY 1998
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis Center,” May 12, 1999

    Inspector General, DoD, Report No. 98-212, “Compilation of the FY 1997
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis Center,” September 24, 1998

    Inspector General, DoD, Report No. 98-120, “Compilation of the FY 1996
    Army Financial Statements at the Defense Finance and Accounting Service
    Indianapolis Center,” April 23, 1998

    Inspector General, DoD, Report No. 96-161, “Compilation of the FY 1995 and
    FY 1996 DoD Financial Statements at the Defense Finance and Accounting
    Service Indianapolis Center,” June 13, 1996

    Inspector General, DoD, Report No. 94-168, “Defense Finance and Accounting
    Service Work on the Army FY 1993 Financial Statements,” July 6, 1994




                                      18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
  Director, Defense Finance and Accounting Service Indianapolis (Sustaining Forces)

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                           19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         20
Defense Finance and Accounting Service
Comments




                   21
22
23
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Jack L. Armstrong
Paul C. Wenzel
Kara N. Brown
Kathleen A. Furey
Monica L. Noell
Lisa C. Rose-Pressley
